1

APPENDIX
A

1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

LARRY DRAKE HANSEN,
Plaintiff - Appellant
v.

No. 18-4104
(D.C. No. 2:i5-cv-00722-JNP)
(D.Utah)

SALT LAKE CITY CORPORATION,
Defendant - Appellee

ORDER AND JUDGMENT*

Before BRISCOE, MORITZ, and EID, Circuit Judges
2019

March 4,

Larry Drake Hansen, proceeding pro se, appeals the district court’s judgment dismissing his
civil rights action under Fed. R. Civ. P. 12(b)(6) and its order denying his post-judgment motion
under Fed. R. Civ. P. 60(a) and (b). Exercising Jurisdiction under 28 U.S.C. § 1291, we affirm.
Background
In 2012, Hansen was assaulted during a late-night walk down Main Street in Salt Lake City,
Utah. He suffered numerous injuries, including bruises, abrasions, a broken nose, and damage to
his hamstring ligament. Although other people in the area witnessed the attack, Hansen did not see
his assailant and was unable to identify him later in a police line-up. But he believes the police
photographed the suspects, and a bystander told him the assailant was wearing a black jacket and

* After examining the briefs and appellate record, this panel has determined unanimously to honor the parties’
request for a decision on the briefs without oral argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The
case is therefore submitted without oral argument. This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral estoppel. It may be cited, however, for its
persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

2

a white t-shirt with red stains (possibly blood). No arrests were made, and no criminal charges were
filed relating to the assault on Hansen.
In 2015, Hansen filed a civil rights action against the Salt Lake City Police Department (“the
Police Department”) under 42 U.S.C. § 1983, though the Salt Lake City Corporation was later
substituted as the proper defendant. The operative (second amended) complaint asserts state law
claims for gross negligence, due process claims under the Fifth and Fourteenth Amendments to the
federal and state constitutions, and a violation of Hansen’s constitutional right to access the courts.
Relevant to this appeal, Hansen alleges that the police failed to adequately, diligently, thoroughly,
and timely investigate the assault, such that he was precluded from filing a civil action against his
unidentified assailant. He seeks over $5.7 million in compensatory damages and unspecified
punitive damages.
The Police Department filed a motion to dismiss under Rule 12(b)(6). The magistrate judge
issued a Report and Recommendation, recommending that the motion to dismiss be granted and
that the entire action be dismissed with prejudice. Hansen conceded several claims within his
objections, leaving only his federal access-to-the-courts claim and his state constitutional claims.
The district court limited its analysis accordingly. It adopted the Report and Recommendation in
part, dismissing the federal claim with prejudice; however, it declined to exercise supplemental
jurisdiction over the state constitutional claims and dismissed them without prejudice. Hansen filed
a Rule 60 motion for reconsideration, which was denied. Hansen timely appealed both the dismissal
order and the order denying his Rule 60 motion.
Analysis
I.

Motion to Dismiss

3

“To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted
as true, to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (internal quotation marks omitted). A plaintiff must allege specific facts that would support
the conclusion that he is entitled to relief. Khalik v. United Air Lines, 671 F.3d 1188, 1191 (10th Cir.
2012) (“[M]ere labels and conclusions...will not suffice.”) (internal quotation marks omitted). The
district court’s dismissal under Rule 12(b)(6) is subject to de novo revies. SEC v. Shields, 744 F.3d
633, 640 (10th Cir. 2014).

Because Hansen is proceeding without the assistance of counsel, “we construe his pleadings
liberally.” Ledbetter v. City of Topeka, 318 F.3d 1183, 1187 (10th Cir. 2003). We make some
allowances for deficiencies, such as unfamiliaritv with pleading requirements [underline supplied
by Plaintiff], failure to cite appropriate legal authority, and confusion of legal theories. See Garrett
v. Selby Connor Maddux & Janer, 425 F.3d 836, 840 (10th Cir. 2005). But “the court cannot take on
the responsibility of serving as the litigant’s attorney in constructing arguments and searching the
record.” Id. Nor will we “supply additional factual allegations to round out a plaintiffs complaint or
construct a legal theory on a plaintiffs behalf.” Whitney v. New Mexico, 113 F.3d 1170, 1173-74 (10th
Cir. 1997).

We turn first to the access-to-the-courts claim. Hansen asserts that he could not file a statecourt civil action against his assailant before the statute of limitations expired because the Police
Department did not process crime-scene evidence or identify his assailant. This type of claim is
known as a “backward-looking” access claim. See Christopher v. Harbury, 536 U.S. 403, 405, 412-15
(2002) (in which the plaintiff alleged government deception prevented her from bringing a lawsuit
that might have saved the life of her husband, who was a foreign dissident). The district court traced
the history of such a claim back to Harbury. R. at 136. It then explained how the circuit courts

4
recognizing such a claim have done so only where obstructive actions by state actors (such as
destruction or concealment of evidence) prevented an individual from pursuing a civil claim. R. at
137-38. It found Hansen’s claim to be “qualitatively different” in that he alleged “the city did not try
hard enough to assist his civil litigation efforts against an unknown third party.” R. at 138.
Ultimately, the district court held that his claim fails as a matter of law “[b]ecause the Constitution
does not impose a duty on government entities to actively assist the civil litigation efforts of crime
victims.” R. at 139.

We affirm the dismissal of the access-to-the-courts claim for the reasons set forth in the
district court’s well-reasoned order. We agree Hansen’s theory has no basis in Supreme Court or
Tenth Circuit case law. Hansen’s claim rests on a purportedly “reckless investigation,” see R. at 11,
which is not the type of wrongful or intentional police behavior that a backward-looking access claim
seeks to redress. Moreover, in attacking the Police Department’s due diligence, Hansen effectively
asks the judiciary to micromanage how the Police Department performs investigations and allocates
its resources. We decline to enter such a morass, and indeed it would be inappropriate for us to do
so. See, e.g., Muehler v. Mena, 544 U.S. 93, 110 (2005) (“[A] court should not ordinarily question the
allocation of police officers or resources [.]”).

We also agree with, and therefore affirm, the district court’s decision to dismiss the state
constitutional claims without prejudice. It is well established that when all federal claims have been
dismissed, as is the case here, “the court may, and usually should, decline to exercise [supplemental]
jurisdiction over any remaining state claims.” VR Acquisitions, LLC v. Wasatch Cty., 853 F.3d 1142,
1150 (10th Cir. 2017) (quoting Smith v. City ofEnid exrel. Enid City Comm’n, 149 F.3d 1151, 1156
(10th Cir. 1998)).

5
II.

Motion for Reconsideration

Hansen moved for reconsideration of the district court’s order under Rule 60(a), (b)(l), and
(b)(6), alleging mistake and clear error. He reiterated his earber arguments for his federal accessto-the-courts claim, albeit with a focus on the Police Department’s failure to process material
evidence, and posited that the district court’s ruling will force assault victims around the country to
take matters into their own hands to “’settle the score’ with their attacker(s)” and “to reap ‘justice’”
R. at 146. He also asked the district court to examine his state constitutional claims “following
certification to, and determination by,-...the Utah Supreme Court.” R. at 148.

The district court denied the motion. It reasoned that relief was inappropriate under Rule
60(a) because Hansen did not identify “a clerical mistake or a mistake arising from oversight or
omission,” as required, see Fed. R. Civ. P. 60(a), and because “Rule 60(a), may not be used to change
something which has been deliberately don,” R. at 153-54 (quoting Sec. Mut. Cas. Co. v. Century
Cas. CO., 621 F.2d 1062, 1065 (10th Cir. 1980)). It also found relief was unwarranted under Rule
60(b)(1) due to Hansen’s failure to identify a mistake of law or fact by the district court or,
alternatively, to provide persuasive reasons why the court should adopt his position. Finally, it
concluded Hansen was not entitled to relief under Rule 60(b)(6) because his argument was
impermissibly duplicative of his Rule 60(b)(1) argument. See State Bank of S. Utah v. Gledhill (In
re Gledhill), 76 F.3d 1070, 1080 (10th Cir. 1996) (“A court may not premise Rule 60(b)(6) relief...on
one of the specific grounds enumerated in clauses (b)(l) through (b)(5).”).

We review the district court’s denial of Hansen’s Rule 60 motion for an abuse of discretion.
See Jones, Waldo, Holbrook & McDonough v. Cade, 510 F.3d 1277, 1278 (10th Cir. 2007) (Rule 60(a)
motion); Jennings v. Rivers, 394 F.3d 850, 854 (10th Cir. 2005) (Rule 60(b) motion. We will reverse

6

the district court’s determination “only if we find a complete absence of a reasonable basis and are
certain that the decision is wrong.” Yapp v. Excel Corp., 186 F.3d 1222, 1232 (10th Cir. 1999) (elbpsis
and internal quotation marks omitted). Here, too, we agree with the district court’s sound reasoning.
Finding no abuse of discretion, we affirm.

Conclusion

We affirm the district court’s judgment dismissing this action under Rule 12(b)(6) and its
order denying Hansen’s motion for reconsideration under Rule 60(a) and (b).

Entered for the Court
Allison H. Eid
Circuit Judge

1

APPENDIX
B

2

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

LARRY DRAKE HANSEN,
Plaintiff - Appellant
No. 18-4104

v.
SALT LAKE CITY CORPORATION,
Defendant - Appellee

ORDER

Before BRISCOE, MORITZ, and EID, Circuit Judges
April 4, 2019

Appellant’s petition for rehearing is denied.

The Petition for rehearing en banc was transmitted to all the judges of the court who are in
regular active service. As no member of the panel and no judge in regular active service on the court
requested that the court be polled, that petition is also denied.

Entered for the Court
/s/ Elisabeth A. Shumaker
Elisabeth A. Shumaker, Clerk

1

APPENDIX
C

1
IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH

LARRY HANSEN,
Plaintiff
v.

MEMORANDUM DECISION AND ORDER
ADOPTING IN PART REPORT AND
RECOMMENDATION
Case No. 2H5-cv-00722-JNP-PMW

THE POLICE DEPARTMENT OF SALT
LAKE CITY CORPORATION,
Judge Jill N. Parrish
Defendant

Defendant Salt Lake City Corporation1 moved to dismiss plaintiff Larry Hansen’s
second amended complaint. [Docket 24]. Magistrate Judge Warner issued a Report and
Recommendation that this court grant the motion and dismiss the complaint with prejudice.
[Docket 33]. Mr. Hansen objected in part to the Report and Recommendation, but conceded
that several of his causes of action should be dismissed with prejudice. [Docket 34]. He
acknowledged that his first and second claims for gross negligence should be dismissed. He
also agreed that his third claim should be dismissed in part, but argued that the portion of
this claim that alleged a cause of action for violations of Article 1, Section 7 of the Utah
Constitution should not be dismissed. Thus, the counts that remain in dispute in this case
are the third claim under Article 1, Section 7 of the Utah Constitution, the fourth claim
under Article 1, Section 11 of the Utah Constitution, and the Fifth claim for denial of his
right to “access to the courts” under the United States Constitution.

1 In the caption to his second amended complaint, Mr. Hansen named the defendant as “The Police Department
of Salt Lake City Corporation.” The court liberally construes the complaint to allege claims against the proper
defendant, the Salt Lake City Corporation.

2

Because Mr. Hansen filed an objection, the court “must determine de novo” whether
his objections have merit. Fed R. Civ. P. 72(b)(3) (“The district judge must determine de
novo any part of the magistrate judge’s disposition that has been properly objected to.”); see
also United States v. One Parcel of Real Prop., 73 F.3d 1057, 1060 (10th Cir. 1996) (“[W]e
hold that a party’s objections to the magistrate judge’s report and recommendation must be
both timely and specific to preserve an issue for de novo review by the district court or for
appellate review.”).
I.

OBJECTION TO DISMISSAL OF THE FIFTH CLAIM FOR VIOLATIONS OF MR.

HANSEN’S RIGHT TO “ACCESS TO THE COURTS”
The United States Constitution guarantees access to the courts.2 Christopher v.
Harbury, 536 U.S. 403, 414-15 (2002). A cause of action to vindicate this constitutional right
may fit into one of two categories. A forward-looking claim challenges government actions
that effectively bar a plaintiff form litigating a cause of action at the present time. Id. at
413. A forward-looking claim seeks the removal of this impediment so that the plaintiff may
pursue a remedy in the courts. For example, prisoners may seek the use of a law library or
plaintiffs may request the waiver of filing fees that unreasonably impede access to a court
of law. Id. A backward-looking claim, on the other hand seeks damages caused by

2 The precise source of this right is somewhat hazy. At different times, the Supreme Court has cited the Article
IV Privileges and Immunities Clause, the First Amendment Petition Clause, the Fifth Amendment Due
Process Clause, the Fourteenth Amendment Equal Protection Clause, or the Fourteenth Amendment Due
Process Clause as the foundation for the right to access to the courts. Christopher v. Harbury, 536 U.S. 403,
415 n.12 (2002).

3

government actions that prevented a plaintiff from litigating a cause of action that can no
longer be pursued no matter what the government does in the future. Id. at 413-14.
Mr. Hansen asserts a backward-looking access to the courts claim. He alleges that
the Salt Lake City Police Department failed to properly investigate his assault and identify
his assailant. The department’s substandard investigation, he argues, prevented him from
suing his attacker. Because the statute of limitations has now run on his claim against this
unknown individual, Mr. Hansen is now prevented from ever asserting a tort claim in the
courts. He contends, therefore, that Salt Lake City violated his constitutional right to access
to the courts and that the city should now be held liable for the damages that he would have
recovered in a lawsuit against his assailant.
Judge warner recommends that Mr. Hansen’s access to the courts claim be dismissed
because he does not have a constitutional right to the arrest or criminal prosecution of
another person. See Town of Castle Rock, Colo. v. Gonzales, 545 U.S. 748, 768 (2005) (“[T]he
benefit that a third party may receive from having someone else arrested for a crime
generally does not trigger protections under the Due Process Clause, neither in its
procedural nor in its ‘substantive’ manifestations.”); Linda R.S. v. RichardD., 410 U.S. 614,
619 (1973) ([A] private citizen lacks a judicially cognizable interest in the prosecution or
nonprosecution of another.”). Mr. Hansen objects, arguing that the cases cited in the Report
and Recommendation are distinguishable and do not address an access to the courts claim.
This court determines that it is not necessary to resolve the specific objection raised by Mr.
Hansen. Upon reviewing Mr. Hansen’s access to the court claim, the court determines that
dismissal of this claim is required for an independent reason: The constitutional right to
access to the courts does not require a police department to allocate some constitutional

4
minimum amount of its resources to identify the perpetrator of a crime so that the victim
can sue the perpetrator.
The circuit courts that have recognized a backward-looking access to the courts claim
have only done so in cases where “obstructive actions by state actors” has prevented an
individual from pursuing a civil claim. Flagg v. City of Detroit, 715 F.3d 165, 174 (6th Cir.
2013. The Tenth Circuit, for example, has suggested that where law enforcement officers
threatened to revoke a potential plaintiffs probation if he filed a civil rights action based
upon his arrest, such conduct may violate the right of access to the courts. McKay v.
Hammock, 730 F.2d 1367, 1375 (10th Cir. 1984). The Seventh Circuit has held that planting
evidence to conceal an unlawful killing committed by police officers unconstitutionally
deprived the deceased’s family members of an opportunity to vindicate the killing through
judicial redress. Bell v. City of Milwaukee, 746 F.2d 1205, 1261 (7th Cir. 1984). The Fifth
Circuit has also held that “if state officials wrongfully and intentionally conceal information
crucial to a person’s ability to obtain redress through the courts, and do so for the purpose
of frustrating that right, and that concealment and the delay engendered by it substantially
reduce the likelihood of one’s obtaining the relief to which one is otherwise entitled, they
may have committed a constitutional violation.” Crowder v. Sinyard, 884 F.2d 804, 812 (5th
Cir. 1989); accord Flagg, 715 F.3d at 173 (“In backward-looking [access to the courts]
claims,... the government is accused of barring the courthouse door by concealing or
destroying evidence so that the plaintiff is unable to ever obtain an adequate remedy on the
underlying claim.”); Vasquez v. Hernandez, 60 F.3d 25, 328 (7th Cir. 1995) (“[W]hen police
officers conceal or obscure important facts about a crime from its victims rendering hollow
the right to seek redress, constitutional rights are undoubtedly abridged..”).

5

Mr. Hansen’s claim is qualitatively different from the claims made in the cases that
have recognized a backward-looking access to the courts cause of action. He does not allege
that Salt Lake City actively obstructed his civil suit against his unknown assailant or that
the city destroyed or concealed evidence. Mr. Hansen’s claim is that the city did not try hard
enough to assist his civil litigation efforts against an unknown third party. But, “[t]he
constitutional right of access to the civil courts plainly does not encompass a right to receive
assistance in gaining access to the civil courts.” Brown v. Brabowski, 922 F.2d 1097, 1116
(3rd Cir. 1990).
Because the Constitution does not impose a duty on government entities to actively
assist the civil litigation efforts of crime victims, Mr. Hansen’s federal access to the courts
claim fails as a matter of law. This fundamental legal impediment makes amendment of
this claim futile. Therefore, Mr. Hansen’s fifth cause of action for violations of his right to
access to the courts is dismissed with prejudice.
II.

OBJECTIONS TO THE DISMISSAL OF THE THIRD CLAIM UNDER ARTICLE 1,

SECTION 7 OF THE UTAH CONSTITUTION AND THE FOURTH CLAIM UNDER
ARTICLE 1, SECTION 11 OF TH UTAH CONSTITUTION
Judge Warner also recommended that Mr. Hansen’s claims under the Utah
Constitution be dismissed because lawsuits based upon injuries proximately caused by
assault and battery or the violation of civil rights are barred by the Utah Governmental
Immunity Act. Utah Code § 63G-7‘20l(4)(b). Mr. Hansen objected, arguing that “the Utah
Governmental Immunity Act does not apply to claims alleging state constitutional
violations.” Jensen exrel. Jensen v. Cunningham, 250 P.3e 465, 479 (Utah 2011).

6

The court need not reach the merits of Mr. Hansen’s objection because the court
dismisses without prejudice his state constitutional claims for an independent reason. As
noted above, all of Mr. Hansen’s federal claims have been dismissed. “When all federal
claims have been dismissed, the court may, and usually should, decline to exercise
jurisdiction over any remaining state claims.” Smith v. City of Enid ex rel. Enid City
Comm’n, 149 F.3d 1151, 1156 (10th Cir. 1998). Because the only remaining claims arise
under the Utah Constitution, and because Mr. Hansen acknowledges that his state
constitutional claims raise several novel questions of state law, the court dismisses his
constitutional claims under Article 1, Section 7 and Article 1, Section 11 of the Utah
Constitution without prejudice. Mr. Hansen may refile his claims in state court if he wishes
to pursue them.
CONCLUSION
The court ORDERS as follows^
(l) The Report and Recommendation [Docket 33] is ADOPTED IN PART. The court adopts
the portions of the Report and Recommendation that recommend the dismissal with
prejudice of the first and second claims for gross negligence and the portion of the third
claim that seeks to vindicate Mr. Hansen’s right “to substantive and procedural due process
of law, and the equal protection thereof’ under the United States Constitution.
(2) Salt Lake City’s motion to dismiss with prejudice [Docket 24] is GRANTED IN PART
AND DENIED IN PART. The court DISMISSES WITH PREJUDICE the first and second
claims for gross negligence, the portion of the third claim that seeks to vindicate Mr.
Hansen’s right “to substantive and procedural due process of law, and the equal protection
thereof’ under the United States Constitution and the fifth claim under the federal

7

constitutional guarantee of “access to the courts.” The court DISMISSES WITHOUT
PREJUDICE the portion of the third claim that seeks redress under Article 1, Section 7 of
the Utah Constitution and the fourth claim, which seeks redress under Article 1, Section 11
of the Utah Constitution.

SO ORDERED September 29, 2017.

BY THE COURT:

i

/s/ Jill N. Parrish
JILL N. PARRISH
United States District Judge

